United States Department of Agriculture
Office of Inspector General




Food Safety and Inspection Service -
Inspection and Enforcement Activities
At Swine Slaughter Plants




                                          Audit Report 24601-0001-41
                                          May 2013
                                              Food Safety and Inspection Service—
                                              Inspection and Enforcement Activities
                                                   At Swine Slaughter Plants

                                                     Audit Report 24601-0001-41
What Were OIG’s
Objectives
Our objectives were to identify
areas of risk in FSIS’
inspection of swine plants,
evaluate FSIS’ controls over
food safety and humane            OIG audited FSIS’ inspection and
handling, and determine if
appropriate enforcement           enforcement activities at swine slaughter
actions were taken against        plants to determine if they complied with
plants that violated FMIA and     food safety and humane handling laws.
HMSA.

What OIG Reviewed                 What OIG Found
FSIS inspects over 600 plants
that have grants to slaughter     The Food Safety and Inspection Service’s (FSIS) enforcement
swine. For fiscal years 2008-     policies do not deter swine slaughter plants from becoming repeat
2011, we reviewed                 violators of the Federal Meat Inspection Act (FMIA). As a result,
enforcement actions taken         plants have repeatedly violated the same regulations with little or no
against these plants. We also     consequence. We found that in 8 of the 30 plants we visited,
conducted site visits at          inspectors did not always examine the internal organs of carcasses in
30 plants.                        accordance with FSIS inspection requirements, or did not take
                                  enforcement actions against plants that violated food safety
What OIG Recommends               regulations. As a result, there is reduced assurance of FSIS inspectors
                                  effectively identifying pork that should not enter the food supply.
FSIS needs to develop a
strategy to take progressively    We also found FSIS could not determine whether the goals of a pilot
stronger enforcement actions      program—Hazard Analysis and Critical Control Point (HACCP)-
against plants with serious or    based Inspection Models Project (HIMP)—were met because FSIS
repetitive violations. FSIS       did not adequately oversee the program. In the 15 years since the
should determine what             program’s inception, FSIS did not critically assess whether the new
measurable improvement the        inspection process had measurably improved food safety at each
HIMP program achieved and         HIMP plant, a key goal of the program.
its suitability as a permanent
program. FSIS should also         Finally, we found that FSIS inspectors did not take appropriate
provide a plan on how it will     enforcement actions at 8 of the 30 swine slaughter plants we visited
minimize reliance on the          for violations of the Humane Method of Slaughter Act (HMSA). We
inspectors’ judgment to ensure    reviewed 158 humane handling noncompliance records (violations)
they consistently enforce laws.   issued to the 30 plants and found 10 instances of egregious violations
                                  where inspectors did not issue suspensions. As a result, the plants did
                                  not improve their slaughter practices, and FSIS could not ensure
                                  humane handling of swine. FSIS concurred with all of our
                                  recommendations.
                           United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250


DATE:          May 9, 2013

AUDIT
NUMBER:        24601-0001-41

TO:            Alfred V. Almanza
               Administrator
               Food Safety and Inspection Service

ATTN:          Joseph L. Garcia
               Chief Financial Officer

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       FSIS—Inspection and Enforcement Activities at Swine Slaughter Plants


This report presents the results of the subject review. Your written response to the official draft
report is included at the end of the report. Excerpts from the response and the Office of
Inspector General’s position are incorporated into the relevant sections of the report. Based on
the information in your written response, we have accepted your management decision on all
11 recommendations.

In accordance with Departmental Regulation 1720-1, final action is to be taken within 1 year of
each management decision to prevent being listed in the Department’s annual Agency Financial
Report. For agencies other than the Office of the Chief Financial Officer (OCFO), please follow
your internal agency procedures in forwarding final action correspondence to OCFO.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Table of Contents

Background and Objectives ................................................................................... 1
Section 1: Food Safety ........................................................................................... 4
Finding 1: Enforcement Policies Do Not Deter Repeat Violators ..................... 4
         Recommendation 1 ........................................................................................9
         Recommendation 2 ......................................................................................10
         Recommendation 3 ......................................................................................10
Finding 2: Some Inspectors Performed Insufficient Post-Mortem and
Sanitation Inspections ........................................................................................... 12
         Recommendation 4 ......................................................................................15
         Recommendation 5 ......................................................................................15
         Recommendation 6 ......................................................................................16
Finding 3: Swine HIMP Pilot Program Lacks Sufficient Oversight............... 17
         Recommendation 7 ......................................................................................19
         Recommendation 8 ......................................................................................19
         Recommendation 9 ......................................................................................20
         Recommendation 10 ....................................................................................20
Section 2: Humane Handling .............................................................................. 22
Finding 4: FSIS Could Not Always Ensure Humane Handling at Swine
Slaughter Plants .................................................................................................... 22
         Recommendation 11 ....................................................................................27
Scope and Methodology ........................................................................................ 29
Abbreviations ........................................................................................................ 31
Exhibit A: Audit Sites Visited ............................................................................. 32
Agency's Response ................................................................................................ 35
Background and Objectives
Background
The Food Safety and Inspection Service (FSIS) is the public health agency in the U.S.
Department of Agriculture (USDA) responsible for ensuring that the nation's commercial supply
of meat, poultry, and egg products is safe, wholesome, and correctly labeled and packaged. FSIS
operates under the Federal Meat Inspection Act (FMIA) 1 and the Humane Methods of Slaughter
Act (HMSA), 2 in addition to other laws. FMIA authorizes FSIS to inspect all meat products sold
through interstate commerce and imported products to ensure that they meet United States food
safety standards. FSIS also enforces HMSA to ensure livestock is slaughtered in a humane
manner. In fiscal year (FY) 2011, FSIS received a budget of $905 million for Federal food
safety and inspection services.

Prior to October 2012, FSIS inspection operations were overseen by 15 district offices
nationwide: 3 Alameda, California; Albany, New York; Atlanta, Georgia; Beltsville, Maryland;
Chicago, Illinois; Dallas, Texas; Denver, Colorado; Des Moines, Iowa; Jackson, Mississippi;
Lawrence, Kansas; Madison, Wisconsin; Minneapolis, Minnesota; Philadelphia, Pennsylvania;
Raleigh, North Carolina; and Springdale, Arkansas.

FSIS’ Office of Field Operations is responsible for managing inspection and enforcement
activities nationwide. To accomplish this, the agency employed about 8,600 inspectors at
6,300 Federally-inspected slaughter and processing plants—616 of these plants had a grant to
slaughter swine. 4 In 2011, over 110 million swine were slaughtered in the United States.

Thirty of the 6,300 plants are operating under a pilot HACCP Inspection Models Project (HIMP)
program initiated in 1997. 5 The program was developed to produce a flexible, more efficient,
and fully integrated meat and poultry inspection system. The HIMP program, in contrast to the
traditional inspection system, places responsibility on the plant for sorting out diseased and
contaminated carcasses prior to FSIS inspection. In 1997, FSIS approved the first of five swine
plants to participate in the program.

FMIA requires that inspectors check all livestock before slaughter to determine if the animals are
fit for human consumption. These ante-mortem inspections are one of FSIS’ primary means of
removing diseased animals from the meat supply. When inspectors find animals showing signs
of abnormalities or diseases during ante-mortem inspection, they direct the plant to set the

1
  21 United States Code (U.S.C.), ch.12 (May 22, 2008).
2
  7 U.S.C., ch. 48 (October 10, 1978).
3
  During our audit, FSIS consolidated its district offices from 15 to 10.
4
  Inspectors include in-plant and other frontline personnel.
5
  HACCP, or Hazard Analysis and Critical Control Point, is a scientific system for process control that is used in
food production. It is designed to prevent the occurrence of problems by ensuring that controls are applied at any
point in a food production system where hazardous or critical situations could occur. Hazards can include
biological, chemical, or physical contamination of food products.

                                                                          AUDIT REPORT 24601-0001-41                 1
affected animals aside for further examination by a veterinarian inspector, who may identify the
animals as either “U.S. Suspect” or “U.S. Condemned.” Although animals marked with
“U.S. Suspect” tags are still slaughtered, the veterinarian inspector examines the carcasses more
thoroughly post-mortem to determine if they are safe for human consumption. In contrast,
animals marked with “U.S. Condemned” tags are not slaughtered for food.

HMSA states that the slaughtering and handling of livestock are to be carried out only by
humane methods to prevent the needless suffering of animals. Inspectors’ duties include:
ensuring that there are adequate measures in case of inclement weather, observing truck
unloading, checking water and feed availability, observing handling during ante-mortem
inspection, observing handling of suspect and disabled livestock, observing electric prod use,
monitoring for slips and falls, checking stunning effectiveness, and checking for conscious
animals hanging on the slaughter rail.

These laws were enacted to promote food safety and humane handling of the animals. When
inspectors identify violations of the laws, FSIS regulations, or directives, they may take
enforcement actions. Depending on the seriousness of the violation, inspectors have numerous
options ranging in severity from issuing a citation to suspending the plant. Past audits have
identified weaknesses in the enforcement of both laws.

Related Prior Audits

This audit is the latest in a series of audits related to FSIS enforcement of food safety and
humane handling. The prior audits listed below identified continuing problems with FSIS’
inspections and enforcement:

In 2012, an Office of Inspector General (OIG) audit of shell eggs found that when FSIS
identified egregious violations or repeat violators, it did not initiate progressively stronger
enforcement actions. 6 The agency’s lenient enforcement policy did not deter serious violations
or repeat violators, and the strongest enforcement actions that FSIS initiated were warning
letters.

In 2010, a Government Accountability Office (GAO) audit concluded that inspectors did not take
consistent enforcement actions when faced with humane handling violations. 7 GAO’s review of
noncompliance records (NRs) also identified incidents in which inspectors did not suspend plant
operations or take regulatory actions when they appeared warranted. 8

In 2008, OIG performed an audit in response to videos provided by the Humane Society of the
United States that documented the egregious abuse of cattle awaiting slaughter at the Hallmark-
Westland Meat Packing Company. 9 OIG found that FSIS needed to strengthen management
controls and oversight of food safety and humane handling inspections.


6
  Audit 50601-0001-23, USDA Controls Over Shell Egg Inspections (November 2012).
7
  GAO-10-203, HMSA - Actions Are Needed to Strengthen Enforcement (February 2010).
8
  An NR is a citation issued to the plant for violating the regulations.
9
  Audit 24601-0007-KC, Evaluation of FSIS Management Controls Over Pre-Slaughter Activities (November 2008).

2     AUDIT REPORT 24601-0001-41
In 2007, an OIG audit of beef and poultry processing plants found that FSIS inspection personnel
did not have guidance on when to take further enforcement actions to address repetitive
violations. 10

In 2004, an OIG audit found that FSIS’ monitoring system did not flag NRs with serious
deficiencies, 11 such as the presence of fecal material associated with E. coli contamination on
carcasses. 12 Further, since fecal material noncompliance incidents could result from many
different causes, inspectors did not always link them and monitor their total number at each
plant.

Objectives
Our audit objectives were to (1) identify areas of risk in FSIS’ inspection of swine plants,
(2) evaluate if FSIS’ controls were sufficient to ensure swine slaughter plants were in compliance
with food safety requirements and humane handling standards, and (3) determine if appropriate
enforcement actions were taken against plants that failed to comply with the regulatory
requirements.




10
   Audit 24601-07-Hy, Issues Impacting the Development of Risk-based Inspection at Meat and Poultry Processing
Establishments (December 2007).
11
   Audit 24601-0003-Ch, Food Safety and Inspection Service Use of Food Safety Information Systems
(September 2004).
12
   Escherichia coli (abbreviated as E. coli) are a large and diverse group of bacteria that can cause illnesses such as
diarrhea, urinary tract infections, and pneumonia.

                                                                            AUDIT REPORT 24601-0001-41                3
Section 1: Food Safety
Finding 1: Enforcement Policies Do Not Deter Repeat Violators
FSIS’ enforcement policies do not deter swine slaughter plants from becoming repeat violators
of food safety regulations. During FYs 2008 to 2011, FSIS issued 44,128 noncompliance
records (NRs) 13 to 616 plants; only 28 plants were suspended, even though some plants repeated
violations as egregious as fecal matter on previously cleaned carcasses. 14 This occurred because
FSIS does not (1) always take progressively stronger enforcement action against repeat violators,
when warranted; (2) distinguish between serious violations and minor infractions on its NRs; and
(3) provide sufficient guidance on what actions to take in specific circumstances. As a result,
plants have repeatedly violated the same regulations with little or no consequence. For example,
21 percent of NRs at the 20 most-cited plants were for repeat violations. Without more incentive
to improve compliance, the 616 plants—which process about 110 million swine per year—run a
higher risk of providing pork for human consumption that should not enter the food supply.

Regulations state “each [plant] must be operated and maintained . . . to prevent the creation of
insanitary conditions and to ensure that product is not adulterated.” 15 For all Federally-
inspected slaughter plants that do not meet regulatory food safety requirements, FSIS established
the following six enforcement actions:

     •    Noncompliance Record: Inspectors cite violations of regulations by issuing NRs. 16
          When inspectors identify repeat violations, they link the NRs in FSIS’ mission-critical
          monitoring system, the Public Health Information System (PHIS). 17 As soon as the
          inspectors identify a trend in violations (e.g., three linked NRs), they may inform the
          district office, which determines if more aggressive enforcement action should be taken.

     •    Regulatory Control Action: In conjunction with issuing NRs, an inspector can take
          regulatory control actions by retaining product, rejecting equipment or facilities, slowing
          or stopping the slaughter line, or refusing to allow plants to process the problematic
          product until the plant takes immediate corrective action.

     •    Notice of Intended Enforcement: This is a warning notice issued by FSIS district
          offices. It notifies a plant that, although the violations do not pose an imminent threat to
          public health, FSIS may either withhold the marks of inspection 18 or suspend the plant,

13
   An NR is a citation issued to the plant for violating the regulations. For the purposes of this finding, NRs will
refer specifically to food safety NRs.
14
   FSIS PHIS Directive 5000.1, pp. 94-95 states that repeat violations are “repetitive failures of the same aspect of
the [plant’s] food safety system” and “occurred within a reasonably close period of time” (April 11, 2011). These
violations are linked by inspectors in FSIS’ monitoring system.
15
   9 Code of Federal Regulations (CFR) §416.1 (January 1, 2010). Per 9 CFR §301.2, a product is adulterated “if it
has been prepared, packed, or held under insanitary conditions whereby it may have become contaminated with filth,
or whereby it may have been rendered injurious to health” (January 1, 2010).
16
   FSIS Directive 5000.1, Rev. 3, p. 32 (June 24, 2008).
17
   PHIS is a comprehensive data analysis system that FSIS uses to collect, consolidate, and analyze inspection data.
18
   The official USDA inspection legend to be applied to inspected and passed carcasses and parts of carcasses.

4        AUDIT REPORT 24601-0001-41
       unless the plant responds to FSIS within 3 business days to demonstrate how it has or will
       achieve compliance.

   •   Suspension: During a suspension, plants cease production. FSIS district offices
       withdraw inspectors from their duties and inform the public of the cause of the
       suspension through FSIS’ website. The length of suspension is determined by how long
       it takes the plant to fix the problem. For FYs 2008 to 2011, suspensions for swine plants
       lasted a median of 7 days before the plants were fully operational again.

   •   Withholding the Mark of Inspection: FSIS district offices may disallow the mark of
       inspection to be applied to products. Without the mark of inspection, products cannot be
       sold.

   •   Withdrawal of Inspection: The FSIS Administrator may file a complaint with a USDA
       Administrative Law Judge to withdraw a grant of Federal inspection. If inspection
       service is withdrawn, an establishment must reapply to receive Federal inspection.

FSIS regularly issues NRs and regulatory control actions to correct noncompliance issues.
However, although FSIS’ enforcement system allows other progressively stronger actions as
described above, we found that FSIS rarely suspended plants and did not take any withholding or
withdrawal actions over our 4-year scope period (see Table 1). Only 0.0006 of the NRs resulted
in a suspension. Although we identified numerous other instances where violations warranted
suspensions, the plants were not suspended. See examples 1 to 3 on the following page.

                 Table 1: Enforcement Actions for Food Safety Violations
                                       FYs 2008-2011
                Type of Enforcement Action              No. of Enforcement Actions

             Noncompliance Record                                        44,128

             Regulatory Control Action                                    7,413

             Notice of Intended Enforcement                                 140
             Suspension                                                       28
             Withholding the Mark of Inspection                                0
             Withdrawal of Inspection*                                         0
             Total                                                       51,709

             * FSIS considered a Withdrawal of Inspection for one plant but elected not to
             pursue the action.


In reviewing the database of the 44,128 NRs and other enforcement actions, we determined that
FSIS’ enforcement policies do not deter swine slaughter plants from repeating the same food

                                                                     AUDIT REPORT 24601-0001-41   5
safety violations. For the few plants that were suspended, the suspensions only briefly
interrupted plant activity. For the 28 suspensions shown in Table 1, FSIS allowed 22 of the
plants to continue to operate within a short period—some as little as one day after suspension.

We attribute deficiencies in enforcement policies, as well as the application of those policies, to
the following three causes: FSIS does not (1) always take progressively stronger enforcement
action against repeat violators, when warranted; (2) distinguish between serious violations and
minor infractions on its NRs; and (3) provide sufficient guidance on what action to take in
specific circumstances.

         FSIS Does Not Always Take Progressively Stronger Enforcement Action Against Repeat
         Violators

         To determine how many NRs were repeated at the plants, we reviewed the 20 plants with
         the highest number of violations. We found that for these plants, as many as 21 percent
         of NRs were repeated, i.e., those linked by inspectors in PHIS. However, as long as a
         plant was making progress in correcting violations and there was no immediate public
         health risk, FSIS officials did not feel the need to pursue progressively stronger
         enforcement action. We disagree with this practice because the plants repeated the same
         serious violations with little or no consequence. See the following examples:

         Example 1: At a plant in South Carolina that slaughtered about 2,700 swine per day,
         FSIS issued a total of 801 NRs, of which 547 (68 percent) were repeat NRs. These
         included 14 zero-tolerance repeat NRs, such as fecal contamination on a hog after the
         final trim; 19 94 repeat NRs for exposed or possibly adulterated products that had “grease
         smears” or “black colored liquid substance” on processed meat; and 43 repeat NRs for
         pest control problems, such as cockroaches on the kill floor. After FSIS issued a Notice
         of Intended Enforcement, the plant continued to repeat the same violations 202 times
         throughout the next year. Despite the continuing problems, FSIS did not take a stronger
         enforcement action such as a suspension.

         Example 2: At a plant in Nebraska that slaughtered about 10,600 swine per day, FSIS
         issued a total of 607 NRs, of which 214 (35 percent) were repeat NRs. These included
         50 repeat NRs for contaminated carcasses that included “fecal material which was yellow
         [and] fibrous” on the carcass, and 39 repeat NRs for other insanitary conditions that
         included a “yellowish colored residue build up” and “pieces of meat and/or fat particles”
         inside the vats that the plant prepared for storing product. Despite the continuing
         problems, FSIS did not take a stronger enforcement action such as a Notice of Intended
         Enforcement or a suspension.

         Example 3: At a plant in Illinois that slaughtered about 19,500 swine per day, FSIS
         issued a total of 532 NRs, of which 139 (26 percent) were repeat NRs. These included
         26 repeat NRs for fecal matter and running abscesses on carcasses, and 43 repeat NRs for

19
  Zero tolerance is a policy of strict, uncompromising enforcement of regulations, specifically related to situations
such as fecal contamination of carcasses. In this case, the carcass was previously cleaned and all contaminated parts
should have been removed.

6     AUDIT REPORT 24601-0001-41
        other insanitary conditions during operations that included exposed or possibly
        adulterated products and the presence of pests on the kill floor. Despite the continuing
        problems, FSIS did not take a stronger enforcement action such as a Notice of Intended
        Enforcement or a suspension.

        Similar issues were reported by OIG in 2007 and 2012. 20 When we asked national office
        officials why FSIS had not implemented more effective changes to the program, an
        Assistant Administrator stated that the agency planned to focus on improving controls in
        swine slaughter once it implements new guidance sometime in 2013. Moreover, he
        believed that microbiological testing is a significantly better measure of food safety than
        visible inspection and that a high number of NRs does not necessarily correlate to food
        safety issues. Although the Assistant Administrator considered FSIS’ guidance to be
        outdated, he still emphasized the importance of following existing policy.

        Since microbiological tests are performed only on a sample of carcasses (whereas visual
        and manual inspections are required on all carcasses), we question whether this is a better
        measure for food safety due to its limited use. In addition, FSIS directives recognize that
        visual inspections to detect contamination are a significant factor in ensuring food safety.
        One directive states that “the insanitary conditions may be such that the product produced
        in the establishment may have become contaminated with filth or otherwise rendered
        injurious to health.” 21 Because visible contamination poses a threat to human safety,
        FSIS directives require inspectors to “look for . . . sanitary dressing defects (e.g., fecal
        material).” 22

        FSIS Does Not Distinguish Between Serious Violations and Minor Infractions on Its NRs

        Although NRs document which regulations were violated and FSIS has taken steps to
        link them, FSIS does not distinguish between violations that pose a higher risk to public
        safety from those that do not. Food safety NRs range from a plant’s inaccurate internal
        records to severe rodent infestation on the kill floor, fecal matter on carcasses, or
        contaminated ready-to-eat products. Due to the range of NRs, FSIS should provide
        guidance to inspectors on classifying NRs and modify PHIS, so that FSIS can more easily
        identify patterns of severe violations. Without distinguishing between minor and serious
        violations in PHIS, FSIS would need to read the description of each NR to identify the
        plants with a history of severe violations. See the following examples:

        Example 4: At a plant in Minnesota that slaughtered about 19,000 swine per day, an
        inspector discovered that a date on the plant’s Ante-Mortem Audit Sheet was incorrectly
        recorded as May 27, 2011, instead of the actual date of April 27, 2011. However, the
        inspector found that required ante-mortem procedures had been performed. To document

20
   Audit 24601-07-Hy, Issues Impacting the Development of Risk-Based Inspection at Meat and Poultry
Establishments (December 2007); Audit 50601-0001-23, USDA Controls Over Shell Egg Inspections
(November 2012).
21
   FSIS Directive 5000.1, Rev. 3, p. 4 (June 24, 2008).
22
   FSIS Directive 6100.2, p. 16 (September 17, 2007).

                                                                      AUDIT REPORT 24601-0001-41      7
        the recordkeeping violation, he issued an NR to the plant. We consider this to be a minor
        violation since the misreported date would not impact food safety of the product.

        Example 5: At a plant in Nebraska that slaughtered about 10,600 swine per day, an
        inspector observed yellow fibrous fecal material on the left hind foot of one carcass. The
        contaminated carcass had moved past the plant’s quality control employees without being
        detected. To document this violation, the inspector issued an NR to the plant. We
        consider this to be a more serious violation than the one above since fecal matter on a
        carcass (a zero-tolerance violation) would impact food safety of the product.

        A similar issue was reported by OIG in 2004 when we found that FSIS’ monitoring
        system could not identify NRs with serious deficiencies, 23 such as the presence of fecal
        material associated with E. coli contamination on carcasses. When we asked FSIS
        officials why they had not improved PHIS to classify NRs since then, they told us they
        relied on the inspectors to alert them of major problems.

        However, this may not be an ideal practice for the following reasons. First, FSIS national
        and district officials have oversight responsibilities that include determining how well
        slaughter plants nationwide comply with food safety regulations, as well as identifying
        emerging trends and risks. Without classifying the severity of violations, these officials
        cannot easily determine the frequency of severe violations or if patterns exist at certain
        plants. The agency has already recognized the importance of classifying egregious
        violations for humane handling. Second, although FSIS national and district officials rely
        on the inspectors to alert them of major problems, the inspectors may not know the
        history of the plant since they often rotate to other plants or leave the agency. Also, some
        plants receive hundreds of NRs a year, and the inspectors must either rely on their
        memories or re-familiarize themselves with each NR.

        FSIS Does Not Provide Sufficient Guidance on What Action to Take in Specific
        Circumstances

        FSIS has not issued regulations or policies on when to initiate stronger enforcement
        action for repeat violations. There are no quantifiable criteria explaining when actions
        such as suspensions or Notices of Intended Enforcement should be issued. Regulations
        state “FSIS may take a withholding action or impose a suspension” to plants with
        insanitary conditions “due to multiple or recurring noncompliance.” 24 However, FSIS
        directives do not quantify how many violations constitute “multiple or recurring
        noncompliance;” nor do the directives mandate when to suspend a plant.

        There are other instances where FSIS directives are not specific. For example, when a
        plant has repeat violations, one directive states that “the Frontline Supervisor and
        [Inspector-in-Charge] are to determine whether the NRs should be linked and whether a


23
   Audit 24601-0003-Ch, Food Safety and Inspection Service Use of Food Safety Information Systems
(September 2004).
24
   9 CFR §500.4 (January 1, 2010).

8     AUDIT REPORT 24601-0001-41
         Food Safety Assessment should be recommended.” 25 While a Food Safety Assessment
         may lead to a Notice of Intended Enforcement, the directive does not specify when one
         should be issued or whether a suspension should be imposed.

         A similar issue was reported by OIG in 2007. 26 When we asked FSIS officials how they
         quantified multiple or recurring violations, they stated that there is no “magic number”
         and that as long as there is a distinction between sporadic problems and systemic failure,
         there is no need for such a measure.

         As evidenced in examples 1 through 3 of this finding, we found several plants where
         recurring NRs revealed a systemic failure and not a sporadic problem, including recurring
         zero-tolerance violations—most occurred within 3 months of each other. Although the
         agency stated that the frequency of violations over a specific timeframe is important in
         determining when to take stronger enforcement action, FSIS’ guidance does not define
         frequency or specify timeframes. Without more specific criteria, inspectors and officials
         have the option not to pursue even the most serious violations. FSIS officials may also
         choose different courses of action, leading to plants being treated inconsistently.

In conclusion, while FSIS’ enforcement system allows progressive actions against repeat
violators, the agency rarely pursues stronger actions. Since there are no substantial
consequences for plants that repeatedly violate the same food safety regulations, the plants have
little incentive to improve their slaughter processes. It is critical that plants work towards
preventing violations from occurring in the first place because recurring, severe violations may
jeopardize public health. By helping swine slaughter plants move towards this goal, FSIS will
improve its assurance that the nation’s commercial supply of pork is safe and wholesome.

Therefore, FSIS should develop a strategy to take progressively stronger enforcement action
against plants with serious or repetitive violations, and develop criteria and procedures to classify
all severe food safety NRs. The agency should also modify existing criteria to standardize when
suspensions and Notices of Intended Enforcement should be applied, as well as define the
frequency and specify the timeframes when violations would lead to such enforcement actions.

Recommendation 1
Develop a strategy to take progressively stronger enforcement action against plants with serious
or repetitive violations.




25
   FSIS Directive 5000.1, Rev. 3, p. 82 (June 24, 2008). An FSIS webcast states that a Food Safety Assessment
considers all the food safety aspects that relate to a plant and all the products the plant produces (November 25,
2008).
26
   Audit 24601-07-Hy, Issues Impacting the Development of Risk-Based Inspection at Meat and Poultry
Establishments (December 2007).

                                                                           AUDIT REPORT 24601-0001-41                9
Agency Response
In order to facilitate developing a strategy to take progressively stronger enforcement action
against plants with serious or repetitive violations, FSIS has implemented PHIS. 27 When data
indicates repetitive non-compliance with food safety related regulations, it implements
enforcement action in accordance with the Rules of Practice, 9 CFR Part 500. Additionally,
FSIS is developing a strategy for taking progressively stronger enforcement actions against
plants with serious or repetitive violations by using regulatory non-compliance to identify
establishments that should be prioritized for “for cause” Food Safety Assessment. FSIS will
complete this work and develop a strategy by January 1, 2014.

OIG Position
We accept FSIS’ management decision on this recommendation.

Recommendation 2
Develop criteria and procedures to classify all severe food safety NRs.

Agency Response
FSIS is developing criteria and procedures to classify all severe food safety NRs, by using the
PHIS data. FSIS has determined the regulations that have significant potential for public health
consequences. The details of this data driven approach to inspection and enforcement was
originally detailed in a paper entitled “Data-Driven Inspection for Processing and Slaughter
Establishments Public Health Decision Criteria,” published September 2010. A revised
approach that defined criteria was developed in 2012 and presented to the National Advisory
Committee for Meat and Poultry Inspection (NACMPI) in January 2013. FSIS will incorporate
input from the NACMPI and implement these criteria by January 1, 2014.

OIG Position
We accept FSIS’ management decision on this recommendation.

Recommendation 3
Modify existing criteria to standardize when suspensions and Notices of Intended Enforcement
should be applied, as well as define the frequency and specify the timeframes when violations
would lead to such enforcement actions.




27
     OIG is currently conducting an audit on PHIS (24601-0001-23).

10         AUDIT REPORT 24601-0001-41
Agency Response
FSIS agrees that consistently applying the principles of the Public Health Decision Criteria,
which determines how suspensions and Notices of Intended Enforcement should be applied
when taking enforcement actions, is in fact necessary. When taking enforcement action, the
Agency is guided by the public health criteria as defined in “Data-Driven Inspection for
Processing and Slaughter Establishments Public Health Decision Criteria,” published September
2010, and the regulatory Rules of Practice defined in 9 CFR Part 500. The Agency will develop
instructions through a notice or directive for its management and supervisory personnel on the
Rules of Practice and decision criteria to further advance consistent enforcement of the principles
by January 31, 2014.

OIG Position
We accept FSIS’ management decision on this recommendation.




                                                            AUDIT REPORT 24601-0001-41         11
Finding 2: Some Inspectors Performed Insufficient Post-Mortem and
Sanitation Inspections
To ensure sanitation and food safety, inspectors are responsible for examining carcasses, as well
as the general plant environment. However, we found that in 8 of the 30 slaughter plants we
visited, inspectors did not always examine the internal organs of carcasses in accordance with
FSIS inspection requirements, or did not always issue NRs to plants that violated food safety
regulations. This occurred due to vague guidance as well as insufficient on-the-job training and
supervision. As a result, there is reduced assurance that inspectors will effectively identify pork
that should not enter the food supply. Together, the 8 plants slaughtered about 16,000 swine per
day.

Inspectors serve as the first line of defense against contaminated pork entering the food supply.
According to regulations, on-line inspectors, who are stationed at fixed positions along the
slaughter line, are required to conduct “a careful post-mortem examination and inspection . . . of
the carcasses and parts thereof of all livestock slaughtered at official [plants].” 28 Inspectors are
required to check “the head, tail, tongue, thymus gland, and all viscera of each animal
slaughtered . . . [and to] observe and palpate the mesenteric lymph nodes” as well as “grasp, turn,
and observe both sides of the kidneys” to find parasites, inflammation, swelling, or masses that
might indicate disease. 29 If inspectors find contamination, “they are to verify that the
[contaminated parts] are removed in a sanitary manner.” 30 If the plant has not complied with
sanitation regulations, but the noncompliance does not need immediate attention, inspectors “are
to notify the [plant] management of the noncompliance and document the finding on a NR.” 31

Off-line inspectors are responsible for monitoring plant sanitation, including ensuring that meat
is not exposed to environmental contaminants, such as flies and other vermin and poor
ventilation. According to an FSIS directive, “Every time the [inspector] finds that the [plant] is
not meeting the [sanitation] requirements, he or she should document the noncompliance on the
NR.” 32

However, we found that inspectors did not always identify contaminated meat or cite plants for
sanitation violations. We observed the entire slaughter process at 30 of the 616 plants, which
slaughtered about 137,000 swine per day. Even though inspectors knew we were observing them
during the on-line slaughter and sanitation inspection at each plant, we still found the following
problems:

         On-line Post-mortem Inspections

         Some on-line inspectors did not always perform post-mortem inspections, as required by
         FSIS policy. At a plant in Indiana that slaughtered about 3,140 swine per day, a recently
         hired on-line inspector neglected to mark as inedible a tray of viscera that was

28
   9 CFR §310.1(a) (January 1, 2010).
29
   FSIS Directive 6100.2, p. 16 (September 17, 2007).
30
   FSIS Directive 6100.2, p. 16 (September 17, 2007).
31
   FSIS Directive 5000.1, Rev. 3, p. 72 (June 24, 2008).
32
   FSIS Directive 5000.1, Rev. 3, p. 71 (June 24, 2008).

12      AUDIT REPORT 24601-0001-41
contaminated with feces. The tray became contaminated because a plant employee had
cut through the rectum while removing the viscera for inspection. The plant employee
marked the carcass with an “x” to indicate that the carcass required further trimming or
extra attention. However, the inspector allowed the tray to pass without marking it as
inedible. Eventually, an off-line inspector, who was accompanying us on our site visit,
caught the error and marked the tray of viscera inedible.

At four plants located in Alabama, Iowa, New Jersey, and South Dakota that slaughtered
about 11,800 swine in total per day, some on-line inspectors did not palpate the kidneys
of each carcass or fan out the intestines in order to palpate the lymph nodes during
viscera inspection. Two inspectors stated they were distracted during our observation of
post-mortem inspections, the agency informed us the third inspector had a history of
performance issues, and the fourth inspector was new to swine inspection.

These performance issues can be remedied with increased on-the-job training and
supervision. When we spoke with FSIS personnel, they explained that, while all new
inspectors receive formal training, much of their responsibilities are taught through on-
the-job training. District officials stated that new inspectors receive increased
supervision; after the first 2 months, this level of involvement decreases. Generally,
district officials agreed that the supervisors should have more closely monitored the
inspectors in question. When we drew these individual instances to the district officials’
attention, they informed the supervisors, who in turn provided informal refresher training
to the inspectors. We encourage FSIS to continue these actions at all plants.

When we discussed this issue with an Assistant Administrator, he emphasized the
importance of inspectors performing their duties in accordance with directives and
notices. He also stated that questions and concerns about the post-mortem inspection
process should be discussed between inspectors and their supervisors at their regular
weekly meetings.

Off-line Sanitation Inspections

Some off-line inspectors did not take sufficient steps to cite issues and enforce sanitation
regulations because inspectors often believed they had the discretion to forgo required
enforcement action. At a plant in Alabama that slaughtered about 100 swine per day, we
saw heavy condensation dripping from the ceiling of the cooler room onto unwrapped
carcasses that had already passed the final inspection and were ready to be shipped to
customers. This constitutes a potential contamination issue. Regulations state that such
coolers require ventilation “adequate to control odors, vapors, and condensation to the
extent necessary to prevent adulteration of products and the creation of insanitary
conditions.” Though the inspector had a discussion with plant personnel about the
condensation, she did not document this noncompliance on an NR.

The inspector felt that the required NR was unnecessary because the plant had installed
new circulating fans and refrigeration units—although they did not prevent condensation.

                                                      AUDIT REPORT 24601-0001-41         13
         This plant had a history of condensation problems, which continued even after the
         devices were installed. Because the condensation was a regulatory violation, the district
         agreed that the inspector should have written an NR.

         At three plants in California, Pennsylvania, and Illinois that slaughtered about
         1,045 swine in total per day, we observed flies on the kill floors. In one plant, flies
         hovered over an area where blood was being collected to be sold for human
         consumption. 33 Regulations state that plants’ “walls, floors, ceilings, doors, windows,
         and other outside openings must be constructed and maintained to prevent the entrance of
         vermin, such as flies, rats, and mice.” The inspectors did not document this
         noncompliance on an NR.

         We determined that there is no clear guidance on how to address vermin and whether
         their presence constitutes a violation. When we questioned the FSIS officials on whether
         the presence of flies constitutes an NR, they gave us varied responses. At two districts,
         officials explained that flies in the slaughter area would normally be documented on an
         NR. Other districts told us, “[the regulation] is not specific.” An Assistant Administrator
         stated that there is no definite rule on how many flies must be present to write an NR.
         However, he stated that there is an expectation of consistency and that FSIS needs a
         policy to address this inconsistency.

Although no diseased or contaminated pork appeared to enter the food supply as a result of the
incidents we observed, we remain concerned that FSIS cannot ensure this will always be the case
if inspectors are not properly performing sufficient post-mortem and sanitation inspections. The
inspection process is only as effective as its inspectors are vigilant. Because inspectors are
primarily responsible for monitoring plant sanitation and the safety of the meat they inspect, they
must be able to adequately identify points of concern, resolve them, and document all violations
that occur. Failure to do so can jeopardize public health.

In conclusion, although FSIS has issued guidance to address inspector performance, it was not
always followed, as was evidenced by the examples discussed above. Therefore, FSIS should
emphasize to supervisors that action is necessary to address inspector performance issues.
Actions should include discussing requirements with inspectors and monitoring their progress
more closely in the future. During training for inspectors, FSIS should emphasize the
importance of following agency policy in documenting NRs. In addition, FSIS should clarify
guidance on when the presence of vermin on the kill floor constitutes a violation.




33
  Many cultures consume blood as food, often in combination with meat. The blood may be in the form of blood
sausage, as a thickener for sauces, a cured salted form for times of food scarcity, or in a blood soup. Blood can also
be used as a solid ingredient, either by allowing it to congeal (uncooked) before use, or by cooking it to accelerate
the process. In this case, after we identified the violation, the plant stopped collecting blood and cleaned the area.

14      AUDIT REPORT 24601-0001-41
Recommendation 4
Emphasize to supervisors that action is necessary to address inspector performance issues.
Actions should include discussing requirements with inspectors and monitoring their progress
more closely in the future.

Agency Response
FSIS agrees that supervisors should be continually addressing inspection program personnel
(inspectors) performance issues by addressing inspectors' understanding of policy and ensuring
consistent requirements are applied. Supervisors manage in-plant employees’ performance
through the In-Plant Performance System, through which they observe and review each
employee’s performance to determine where there is a need for improvement. The agency
issued FSIS Directive 4430.3 in June 2002, to be implemented October 2002. It requires
supervisors to perform at least two In-Plant Performance System reviews per employee per year.
FSIS will update its future training to emphasize the importance of following In-Plant
Performance System policies. FSIS issued a reminder memo to supervisors to follow FSIS
Directive 4430.3 on April 1, 2013.

OIG Position
We accept FSIS’ management decision on this recommendation.

Recommendation 5
During training for inspectors, emphasize the importance of following agency policy in
documenting NRs.

Agency Response
The Agency agrees that documenting noncompliance with regulatory requirements is central to
its mission. FSIS will update its training to emphasize the importance of following agency
policy in documenting NRs. FSIS will also reinforce this requirement during discussions with
field personnel. FSIS will review training content and update, where necessary, to ensure that
documenting NRs and Memorandum of Interviews are appropriately emphasized and adjust, if
needed, by January 31, 2014.

OIG Position
We accept FSIS’ management decision on this recommendation.




                                                           AUDIT REPORT 24601-0001-41          15
Recommendation 6
Clarify guidance on when the presence of vermin on the kill floor constitutes a violation.

Agency Response
The agency agrees that vermin, or other pests on a kill floor, processing area, or in any other part
of an establishment pose a sanitary hazard, and clearly violates 9 CFR 416.2(a). FSIS will
review training content and relevant notices and directives to ensure that all field personnel
understand the regulatory requirements of 9 CFR 416(2) and foster uniform application. FSIS
will review training content and relevant notices and directives by January 31, 2014.

OIG Position
We accept FSIS’ management decision on this recommendation.




16     AUDIT REPORT 24601-0001-41
Finding 3: Swine HIMP Pilot Program Lacks Sufficient Oversight
In 1997, FSIS began a pilot program called the HACCP-based Inspection Models Project
(HIMP) for swine, which allowed five large plants to have faster line speeds with fewer FSIS on-
line inspectors. 34 Although program goals were to increase food safety and plant efficiency,
FSIS could not determine whether these goals were met because it did not adequately oversee the
program. Specifically, FSIS (1) did not evaluate whether the program resulted in a measurable
improvement to the inspection process, (2) allowed one HIMP plant to forgo the standard FSIS
policy to manually inspect viscera, and (3) did not have formal agreements with the HIMP
plants. This occurred because FSIS’ focus was on other issues, and it did not consider the swine
HIMP program a priority. Since FSIS did not provide adequate oversight, HIMP plants may
have a higher potential for food safety risks. Nationwide, 3 of the 10 plants cited with the most
NRs continue to participate in the HIMP program.

Beginning in 1997, five plants that slaughter market swine were converted to HIMP plants to test
this pilot inspection program. 35 FSIS stated in the Federal Register that during the project, it
“will test and evaluate new approaches to fulfilling inspection requirements by plants and FSIS
inspectors. The project will also test new FSIS food safety and other consumer protection
activities. . . . The new models are intended to help the Agency determine how best to maintain
and improve upon the level of protection provided by current inspection procedures, and at the
same time use its resources more effectively.” FSIS further stated that it expected “this system
to yield increased food safety and other benefits to consumers.” 36

To achieve increased food safety and other benefits for consumers, FSIS provided HIMP plants
“the flexibility, within performance and regulatory standards set by FSIS, to design specific
processes that address hazards and defects unique to their operations.” 37 HIMP plants have
fewer FSIS inspectors, and processing lines are allowed to operate at higher speeds than in
traditional plants because plant employees—rather than FSIS inspectors—sort out diseased
carcasses and parts before they reach FSIS inspectors for final determination of wholesomeness.

Although HIMP was intended to improve food safety, we found that 3 of the 10 plants cited with
the most NRs from FYs 2008 to 2011 were HIMP plants. In fact, the swine plant with the most
NRs during this timeframe was a HIMP plant—with nearly 50 percent more NRs than the plant
with the next highest number. This occurred because of FSIS’ lack of oversight, which is
evidenced in the following areas:


34
   For the purposes of this finding, “HIMP plants” will refer specifically to the swine HIMP plants. HACCP, or
Hazard Analysis and Critical Control Point, is a scientific system for process control that is used in food production.
It is designed to prevent the occurrence of problems by ensuring that controls are applied at any point in a food
production system where hazardous or critical situations could occur. Hazards can include biological, chemical, or
physical contamination of food products.
35
   Market swine, which are between 5 to 8 months old, represent a significant number of swine slaughtered in the
United States. Only plants that slaughter market swine were allowed to participate in the swine HIMP program.
36
   Federal Register, Docket No. 98-039N (July 29, 1998). No final rule was ever published for the swine HIMP
program.
37
   Federal Register, Docket No. 96-008N (June 10, 1997).

                                                                         AUDIT REPORT 24601-0001-41                17
         No Measureable Improvement to Inspection Process

         In the 15 years since the program’s inception, FSIS did not critically assess whether the
         new inspection process had measurably improved food safety at each swine HIMP
         plant—a key goal of the HIMP program. FSIS officials told us that, “the [HIMP program
         was] intended to help the agency . . . improve upon the level of protection provided by
         current inspection procedures.” Therefore, FSIS needs to determine what measurable
         improvement to inspection procedures is expected as a result of the HIMP program. As
         of January 2013, FSIS has not completed the assessment.

         Additionally, because HIMP is still in a pilot stage, FSIS needs to review the program’s
         progress to determine its suitability as a permanent program. FSIS should evaluate HIMP
         plants’ noncompliance histories and allow only those plants with a strong history of
         regulatory compliance to remain in the program. Without a review, HIMP plants that are
         continually noncompliant—such as the swine plant with the most NRs nationwide—have
         less assurance of food safety than a traditional plant.

         No Manual Inspection of Viscera

         At one of the five HIMP plants that slaughtered about 8,100 swine per day, we observed
         that neither HIMP sorters nor FSIS inspectors manually inspected viscera for signs of
         disease or contamination. 38 As described in Finding 2, this is a key safety inspection that
         FSIS requires. This plant typically produces and ships more than 50,000 pounds of
         finished product per day, and receives the FSIS marks of inspection.

         When we asked why this plant was the only one in the nation that was not required to
         manually inspect viscera, FSIS national office officials told us (1) this was not a food
         safety concern, since market swine are young and “generally” healthy, (2) animal
         diseases are less a priority now than microbiological contamination, and (3) FSIS allowed
         “a waiver of the regulations and inspection requirements to be made on the condition that
         the waiver provides a definite improvement.”

         However, we reviewed documents and policies and learned that agency policies require
         manual inspection of viscera. All other swine plants in the nation manually inspect
         viscera because some signs of disease and contamination can be detected only through a
         manual inspection. Examples include tuberculosis nodules embedded within the lymph
         nodes, parasites within the intestine, and inflamed or degenerated organs that are
         unusually sticky to the touch or excessively firm. Last, FSIS could not produce a waiver
         exempting any HIMP plant from this FSIS requirement.

         No Formal Agreements

         FSIS did not have formal agreements with the five plants participating in HIMP. HIMP
         plants are granted more flexibility in their operating process than non-HIMP plants,

38
  HIMP sorters at this plant manually inspect viscera only if tuberculosis is observed in lymph nodes in the carcass’
head, which is rare in market swine.

18      AUDIT REPORT 24601-0001-41
       including being allowed to have faster production line speeds with fewer FSIS inspectors.
       In return, FSIS should ensure plants understand their obligations as HIMP participants,
       such as delivering expected improvements over food safety and consistently maintaining
       compliance with food safety regulations in order to remain a HIMP participant.
       Therefore, to fully document these obligations, FSIS should establish formal agreements
       with the plants.

In conclusion, any pilot program, especially one that offers plants flexibility within established
performance and regulatory standards, should receive adequate oversight. Instead, the swine
HIMP program has shown no measurable improvement to the inspection process; the program
was not studied during its first 15 years; three of five HIMP plants had some of the highest
numbers of NRs nationwide; and one plant was allowed to forgo an essential food safety
procedure.

Therefore, FSIS should determine what measurable improvement the HIMP program achieved
and its suitability as a permanent program. FSIS should also develop criteria to terminate plants
from HIMP that have a pattern of severe violations, require all HIMP plants to perform visual
and manual inspections of viscera, and establish formal agreements with plants participating in
the HIMP program.

Recommendation 7
Determine what measurable improvement the HIMP program achieved and its suitability as a
permanent program.

Agency Response
FSIS will complete an evaluation of HIMP market hog establishments. The report will include
an analysis of HIMP establishments’ performance compared to non-HIMP establishments as
well as their performance with respect to performance standards established by an independent
consulting firm contractor. Such an evaluation may support rule-making to amend regulations to
make an inspection system informed by the market hog HIMP pilot permanent. FSIS will
complete this evaluation and determine if a permanent program is warranted by March 31, 2014.

OIG Position
We accept FSIS’ management decision on this recommendation.

Recommendation 8
Develop criteria to terminate plants from HIMP that have a pattern of severe violations.




                                                             AUDIT REPORT 24601-0001-41          19
Agency Response
The same criteria for regulatory compliance are applied to both non-HIMP and HIMP
establishments. Establishments that exhibit a pattern of serious regulatory non-compliance may
be subject to a Notice of Intended Enforcement Action, a suspension of inspection activities, and
even withdrawal of the grant of inspection. To terminate the HIMP waivers from an
establishment operating under those waivers, FSIS has instructed inspectors to report through
supervisory channels when a clear trend of repetitive NRs related to the waivers’ alternate
procedures or Salmonella Initiative Program (SIP) protocol are found (FSIS Directive 5020.1).
FSIS will review the instructions in FSIS Directive 5020.1 and any available data to provide
additional instruction to inspectors on terminating waivers of regulations by October 1, 2013. If
needed, updated instructions will be issued by January 31, 2014.

OIG Position
We accept FSIS’ management decision on this recommendation.

Recommendation 9
Require all HIMP plants to perform visual and manual inspections of viscera.

Agency Response
FSIS understands the importance of visual and manual inspections of viscera. Therefore, FSIS
will convene a scientific workgroup to review FSIS Directive 6100.3 Postmortem Livestock
Inspection and the Market Hogs HIMP Inspection Draft dated June 21, 2005. The internal
workgroup will determine the basis for visual and manual inspection of viscera and ensure
consistency of policies. FSIS will convene this workgroup by October 31, 2013. As needed,
updated policies will be issued by March 31, 2014.

OIG Position
We accept FSIS’ management decision on this recommendation.

Recommendation 10
Establish formal agreements that address all aspects of HIMP with participating plants.

Agency Response
Establishments volunteering for HIMP agreed to follow information required by a Federal
Register notice (62 FR 31553, June 10, 1997) which documented the pilot as a waiver of
regulations for all establishments participating in the pilot. In a Federal Register notice (76 FR
41186, July 13, 2011) FSIS required all establishments operating under a waiver of regulations,
including the HIMP Market Hog establishments, to participate in SIP. Establishments requesting

20     AUDIT REPORT 24601-0001-41
to operate under waivers submit a signed letter to FSIS saying they agree to follow the SIP Letter
and SIP Protocol. After evaluation of the submission, FSIS issues a SIP Letter to the
establishment documenting the conditions for the establishment to meet to operate under the
waiver. The SIP Protocol is a document written and signed by the establishment that includes:
(1) identification of the provisions of the regulations that are to be waived, (2) alternative
procedures that are to be used in place of any waived provisions of the regulations,
(3) description of the microbiological sampling and testing procedures that the establishment will
implement, (4) agreement to share microbiological and other data with FSIS, and (5) any other
pertinent information.

All HIMP establishments have submitted a written, signed letter requesting to participate in SIP
and agreeing to abide by the SIP Letter and SIP Protocol. [By October 2012], FSIS issued a SIP
Letter to each participating HIMP market hog establishment to spell out the specific alternative
procedures and SIP Protocol that the establishment must meet in order to operate under the
waiver(s).

OIG Position
We accept FSIS’ management decision on this recommendation.




                                                            AUDIT REPORT 24601-0001-41        21
Section 2: Humane Handling
Finding 4: FSIS Could Not Always Ensure Humane Handling at Swine
Slaughter Plants
Inspectors did not take appropriate enforcement actions at 8 of the 30 swine slaughter plants we
visited. Specifically, the inspectors did not suspend 6 plants after identifying 10 egregious
humane handling violations and did not issue NRs at 2 plants after identifying 2 nonegregious
violations. 39 This occurred because, although the related FSIS policy was clear and specific,
inspectors often made subjective enforcement decisions. At times, these decisions were
inconsistent, lenient, and endorsed by district officials. As a result, the plants did not improve
their slaughter practices, and FSIS could not ensure the humane handling of swine.

The Humane Methods of Slaughter Act (HMSA) requires that livestock be handled and
slaughtered in a humane way. 40 FSIS policy stated “for situations where there are egregious
humane handling noncompliances... the [inspector-in-charge] is to... orally notify plant
management of an immediate suspension action.” 41 The policy defines an egregious situation as
“any act or condition that results in severe harm to animals,” including “stunning of animals and
then allowing them to regain consciousness, multiple attempts... to stun an animal versus a single
blow or shot that renders an animal immediately unconscious, and running equipment over
conscious animals.” 42 For nonegregious humane handling violations, FSIS requires inspectors to
at least issue an NR. 43

Humane handling practice is defined as treatment of animals “that cause[s] a minimum of
excitement, pain, injury, or discomfort (e.g., driving animals too fast and causing a few to slip
and fall).” 44 To ensure humane handling, inspectors monitor plant employees in unloading
swine from trucks; moving them into holding pens and stunning areas; stunning, sticking, and
bleeding procedures; and their treatment of disabled animals. 45 If inspectors witness inhumane
treatment of swine, they must take one of several enforcement actions. These actions range from
issuing an NR to suspending a plant. 46

Unlike post-mortem food safety inspections, humane handling inspections are only performed on
a limited basis. Also, unlike most sanitary violations, inspectors may suspend a plant for an
egregious humane handling violation without prior notification. 47 However, under new FSIS
policy, a plant that has implemented a “robust” humane handling program and has no history of

39
   For the purposes of this finding, “humane handling” means both humane handling and humane slaughter.
40
   7 U.S.C. ch. 48, sec. 1902 (October 10, 1978).
41
   FSIS Notice 16-08, p. 7 (March 10, 2008). FSIS issued a new directive on August 15, 2011, but most of our
review was conducted prior to that date.
42
   FSIS Directive 6900.2, Rev. 2, p. 21 (August 15, 2011); FSIS Notice 16-08, p. 3 (March 10, 2008); FSIS Notice
21-09, pp. 2-3 (April 1, 2009); FSIS Notice 19-10, pp. 2-3 (April 6, 2010).
43
   FSIS Directive 6900.2, Rev. 1, p. 9 (November 25, 2003) and FSIS Directive 6900.2, Rev. 2, p. 19 (August 15,
2011).
44
   FSIS Directive 6900.2, Rev. 2, p. 3 (August 15, 2011).
45
   9 CFR §313 (January 1, 2010) and FSIS Directive 6900.2, Rev. 2, p. 9 (August 15, 2011).
46
   FSIS Directive 6900.2, Rev. 2, p. 1 (August 15, 2011).
47
   9 CFR §500.3 and §500.4 (November 29, 1999).

22      AUDIT REPORT 24601-0001-41
prior violations may receive a lesser enforcement action (i.e., Notice of Intended Enforcement),
rather than an immediate suspension. 48 In considering which enforcement action to take, district
officials allowed inspectors to frequently use their own judgment. To determine if the
inspectors’ decisions were appropriate, we observed the stunning process and reviewed humane
handling NRs at the 30 plants we visited. We identified 12 instances where FSIS did not take
appropriate enforcement actions.

        At the Sampled Plants

        We observed the stunning process for no more than 30 minutes at each plant. During that
        time, the plants committed the following violations, for which inspectors did not issue the
        required NRs:

        Example 1: At a plant in California that slaughtered about 1,000 swine per day, we
        observed a hog regain consciousness after it was stunned and hoisted upside-down on a
        rail. We alerted the inspector-in-charge that the hog was trying to lift itself and had eye
        movement. After the inspector-in-charge confirmed that the hog was conscious, an
        employee re-stunned it. Although the stunning process was neither rapid nor effective,
        the inspector-in-charge elected not to issue an NR.

        However, HMSA requires “all animals are rendered insensible to pain by a single blow or
        gunshot or an electrical, chemical or other means that is rapid and effective, before being
        shackled, hoisted, thrown, cast, or cut.” 49 Because the hog required two stuns, the plant
        violated HMSA and, according to FSIS policy, the inspector should have at least issued
        an NR. 50 A national office official stated that because this was an egregious incident, the
        inspector-in-charge should have issued a Notice of Intended Enforcement or suspension.

        Five months later, a district official observed another unsuccessful stun at this plant. The
        official had to twice instruct a plant employee to re-stun the hog before the employee did
        so. This incident finally led to the plant’s suspension.

        Example 2: At a plant in Minnesota that slaughtered about 9,400 swine per day, we
        observed a hog come out of the carbon dioxide chamber still conscious. It was alert and
        it was breathing rhythmically, but it appeared to be weak and did not move when it was
        hit with several empty shackles. Instead of immediately re-stunning the hog, it took plant
        employees over 1½ minutes to administer a stun with the captive bolt gun while deciding
        on the best way to reach the hog.




48
   FSIS Directive 6900.2, Rev. 2, p. 22 (August 15, 2011). A Notice of Intended Enforcement is a warning notice
issued by the FSIS district office for an egregious humane handling violation. The district may issue a Notice of
Intended Enforcement to a plant which, in addition to a strong humane handling program and no recent history of
egregious humane handling violations, immediately and effectively addressed the violation.
49
   7 U.S.C. ch. 48, sec. 1902 (October 10, 1978).
50
   FSIS Directive 6900.2, Rev. 1, p. 8 (November 25, 2003).

                                                                       AUDIT REPORT 24601-0001-41               23
        The inspector-in-charge did not issue an NR because he believed there was no violation
        under current regulations and policies. This decision was supported by district officials
        and the frontline supervisor because they believed the hog was “never unconscious” and
        viewed the incident as though the animal had never been stunned.

        We disagree with the officials’ position because the hog went through a functioning
        carbon dioxide chamber (a chemical stunning) and should have been rendered
        unconscious—the fact that the animal emerged conscious does not mean it did not
        experience the chemical stun. Regulations require that “on emerging from the carbon
        dioxide tunnel, the animals shall be in a state of surgical anesthesia and shall remain in
        this condition throughout the shackling, sticking, and bleeding.” 51

        In the incidents above, both plants violated humane handling laws and regulations. The
        inspectors did not take appropriate enforcement actions—their decisions were lenient, yet
        endorsed by district officials. If this occurred when our audit team and FSIS officials
        were present, we are concerned that this might be more prevalent when the plants and
        inspectors are not being observed.

        Review of NRs

        In addition to our observation of the stunning process, we reviewed 158 humane handling
        NRs issued to the 30 plants we visited. We found 10 instances of egregious violations
        where inspectors did not issue suspensions. See the following examples:

        Example 3: At a plant in Indiana that slaughtered about 3,140 swine per day, an
        inspector observed an attempt to stun a hog with a captive bolt gun. It appeared to
        misfire and became lodged in the hog’s skull. The hog remained conscious and aware
        while the plant sent for another gun, which was about 2 minutes away. The second gun
        also appeared to misfire causing the hog to squeal, but it remained conscious and aware.
        The hog then managed to dislodge the first gun from its skull. Ultimately, a portable
        electric stunner had to be used to successfully render the hog unconscious. Following
        this incident, FSIS cited another violation for a hog regaining consciousness on the rail.
        The plant was not suspended for either egregious incident.

        Example 4: At a plant in Pennsylvania that slaughtered about 450 swine per day, a hog
        that had been stunned and bled regained consciousness. The hog was able to right its
        head, make noise, kick, and splash water in reaction to being placed in a scalding tank.
        One plant employee immediately re-slit the hog’s throat without re-stunning it. Although
        plant management was informed about the incident and the line was stopped for
        80 minutes, the inspector only issued an NR. The plant was not suspended.

        Example 5: At the previously mentioned plant in Minnesota that slaughtered about
        9,400 swine per day, an inspector observed a plant employee in a skid loader (similar to a


51
   9 CFR §313.5 (November 2, 1987). The regulation continues, “In swine, carbon dioxide may be administered to
induce death in the animals before they are shackled, hoisted, thrown, cast, or cut.”

24      AUDIT REPORT 24601-0001-41
           fork lift) attempting to move a non-ambulatory hog. The employee repeatedly drove into
           the live hog, pushing it with the skid loader, attempting to lift the hog into the loader
           bucket. On one attempt, the operator was able to lift the back half of the hog into the
           loader, but the load was so imbalanced that the hog fell out of the loader and onto the
           concrete floor. The inspector only issued an NR. Following this incident, FSIS cited
           another egregious violation when a plant employee forcefully hit a hog in the head and
           face with a paddle. The plant was not suspended for either egregious incident.

           The district officials agreed that the three examples above were egregious violations, and
           the plants should have been suspended. They claimed that the term “egregious” was not
           formally defined until the new directive was issued in August 2011. 52 However, we
           found a comparable definition for egregious in an FSIS notice as early as 2004. 53 The
           definition was also incorporated in several other FSIS notices issued between 2005 and
           2011.

           Inconsistency in Inspectors’ Judgment

           To determine which enforcement action inspectors might take in a particular
           circumstance, we interviewed 39 inspectors at the plants we visited. We asked them what
           action they would take if they witnessed one unsuccessful stun. Their responses were
           inconsistent and ranged from issuing a suspension to informing plant officials verbally
           during regular meetings (see Chart 1).

                        Chart 1: Inspectors’ Decisions on Actions to Take for One Unsuccessful Stun




                                     10%      8%                 Suspension                        3

                                                                 Regulatory Control Action         15
                            13%
                                                                 NR                                8

                                                      38%        Memorandum of Interview           4
                           10%
                                                                 Verbally Inform Plant Officials   5

                                                                 Undecided                         4
                                    21%
                                                                                                   39




52
     FSIS Directive 6900.2, Rev. 2, pp. 2-3 (August 15, 2011).
53
     FSIS Notice 35-04, pp. 5-6 (June 15, 2004).

                                                                      AUDIT REPORT 24601-0001-41        25
        HMSA requires that, “all animals are rendered insensible to pain by a single blow or
        gunshot or an electrical, chemical or other means that is rapid and effective, before being
        shackled, hoisted, thrown, cast, or cut.” 54 Therefore, if more than one stun is necessary
        to render the animal unconscious, the plant would be in violation of Federal law.
        According to FSIS policy, the inspector should at a minimum issue an NR for an
        unsuccessful stun. 55 However, if the unsuccessful stun caused severe harm to the animal,
        it constitutes an egregious violation, and the inspector “is to take a regulatory control
        action and recommend . . . an immediate suspension of operation.” 56

        One district official told us that, even though some directives appear straightforward to
        outsiders, “there is room for interpretation.” However, the varied responses from the
        39 inspectors support our concern that when district officials allow inspectors to make
        subjective enforcement decisions, inspectors will be frequently inconsistent. Similar
        issues were reported by GAO and OIG in 2010 and 2008, respectively. In 2010, a GAO
        audit concluded that inspectors did not take consistent enforcement actions for humane
        handling violations. 57 GAO’s review of NRs also identified incidents in which inspectors
        did not suspend plant operations when it appeared warranted. In 2008, OIG performed an
        audit in response to the Humane Society of the United States’ videos that documented the
        egregious abuse of cattle at the Hallmark-Westland Meat Packing Company in Chino,
        California. 58 OIG found that FSIS management did not detect the inconsistent
        application and/or noncompliance with required inspection procedures.

When we discussed the above issues with FSIS’ National Humane Handling Enforcement
Coordinator, he told us that inspectors completed a nationwide humane handling training course
in January 2012. The course consisted of two modules: one for humane handling situations prior
to stunning and one for stunning/consciousness situations. With the completion of the training,
FSIS believed that inspectors would be able to better identify egregious violations.

Despite the history of similar issues in the last 9 years and both OIG and GAO’s
recommendations for nationwide humane handling training, FSIS did not complete the training
until early 2012. 59 Additionally, based on our interviews of some district officials in
March 2012, we are concerned whether the training was effective. In example 1 above, the
inspector-in-charge and the district official who trains inspectors for humane handling both
believed that the unsuccessful stun was not a violation, even after receiving the training. These
actions indicate the training did not improve the inspectors’ ability to identify violations, since
this incident was a violation of HMSA.

In conclusion, the issues and examples discussed above indicate an inconsistency in how FSIS
regulations and policies were applied. Inspectors did not always take necessary enforcement

54
   7 U.S.C. ch. 48, sec. 1902 (October 10, 1978).
55
   FSIS Directive 6900.2, Rev. 1, p. 9 (November 25, 2003).
56
   FSIS Directive 6900.2, Rev. 2, p. 19 (August 15, 2011).
57
   GAO-10-203, HMSA - Actions Are Needed to Strengthen Enforcement (February 2010).
58
   Audit 24601-0007-KC, Evaluation of FSIS Management Controls Over Pre-Slaughter Activities
(November 2008).
59
   GAO reported on FSIS’ inconsistent enforcement actions in humane handling back in January 2004 (GAO-04-
247, HMSA - USDA Has Addressed Some Problems but Still Faces Enforcement Challenges).

26      AUDIT REPORT 24601-0001-41
actions required by regulations and policies. In addition, using their own judgment, some
inspectors did not suspend plants for egregious violations. To ensure consistency, FSIS needs to
provide a plan describing how it will minimize reliance on the inspectors’ judgment to ensure
consistent application and enforcement of HMSA and related regulations.

Recommendation 11
Provide a plan describing how FSIS will minimize reliance on the inspectors’ judgment to ensure
consistent application and enforcement of HMSA and related regulations.

Agency Response
FSIS plans to minimize reliance on the inspectors’ judgment to ensure they consistently enforce
HMSA and related regulations, by implementing the numbered actions below:

1. Since an inspector’s subjective judgment during an inhumane handling event can determine
the enforcement outcome, the agency implemented required supplemental training [completed in
January 2012] after the release of Directive 6900.2 Revision 2, Humane Handling and Slaughter
of Livestock, to improve objective observation and assessment skills. The Situation Based
Humane Handling training Module I and Module II teach inspectors how to interpret an
egregious or non-egregious inhumane handling event objectively, and take appropriate
enforcement actions. The Situation-based Humane Handling training modules were well
received by inspectors and industry, and contain fictional scenarios of inhumane and egregious
events that describe in detail how the inspector is to proceed with regulatory enforcement.

New situation-based fictional scenarios meant to provide continued education for inspectors are
under development, and will be posted through the Humane Interactive Knowledge Exchange
(HIKE) on the FSIS website. The HIKE scenarios consist of a detailed description of an
inhumane event, the enforcement development of regulatory noncompliance, and a review of
applicable FSIS regulations. New scenarios will be posted on the FSIS HIKE website in 2013,
the first of which will be released by May 30, 2013. Inspectors will be notified of new scenarios,
released by December 31, 2013, and will be encouraged to review and discuss the documents
with fellow colleagues.

2. FSIS plans to hire a new Humane Handling Enforcement Coordinator. With the installation
of the new Humane Handling Enforcement Coordinator, the noncompliance review frequency
will increase to monthly, and include direct commentary to the body of each noncompliance that
the District Veterinary Medical Specialists will share with the inspectors. This specific
correlation will improve the inspector’s objective analysis when enforcing HMSA and related
regulations, and reduce subjective interpretation of inhumane events and their regulatory
outcome. In addition, the Humane Handling enforcement coordinator will develop a database to
track the review of noncompliance records; as well as review and track suspensions and Notices
of Intended Enforcement in a similar database.



                                                            AUDIT REPORT 24601-0001-41        27
The Humane Handling Enforcement Coordinator will review humane handling noncompliances
monthly, and forward to the humane handling specialists in each district a summary of the
number of noncompliance records that sound egregious and should have received a Regulatory
Control Action, suspension or a Notice of Intended Enforcement. The review will also include
instances of how many noncompliance records were poorly written, or cited the wrong regulation
for the noncompliant event.

FSIS will establish a new Humane Handling Enforcement Coordinator; increase review
frequency of noncompliances, suspensions, and Notices of Intended Enforcement; and develop a
database tracking these reviews by August 31, 2013.

OIG Position
We accept FSIS’ management decision on this recommendation.




28     AUDIT REPORT 24601-0001-41
Scope and Methodology
We conducted a nationwide review of FSIS’ inspections of swine slaughter plants and its
enforcement of laws, regulations, and policies during FYs 2008 through 2011. We performed
fieldwork at the FSIS national office in Washington D.C.; seven district offices (Alameda,
California; Chicago, Illinois; Des Moines, Iowa; Raleigh, North Carolina; Jackson, Mississippi;
Minneapolis, Minneapolis; and Philadelphia, Pennsylvania); and 30 plants in 12 States (see
exhibit A for a complete list of audit sites). We performed fieldwork from July 2011 through
October 2012.

Generally, we selected the seven districts with the highest number of NRs. Using analytical
software, we judgmentally selected 30 of 616 plants in our sampled districts based on the
(1) number of NRs and suspensions during our scope, (2) size of the plant, (3) elapsed time since
the last suspension, (4) number of swine each plant slaughtered, (5) availability of swine
slaughter activity, and (6) proximity to other plants in our sample.

To accomplish our audit, we:

     •   Reviewed criteria: We reviewed pertinent laws and regulations governing the FSIS
         program and the current policies and procedures FSIS established as guidance for
         inspections and enforcement. These laws, regulations, and policies include FMIA,
         HMSA, and FSIS Directives and Notices.

     •   Interviewed FSIS personnel: We interviewed FSIS national and district office officials,
         as well as inspectors at the plants, to gain an understanding about the FSIS program, its
         inspections, and enforcement procedures.

     •   Reviewed and analyzed NRs: We analyzed NRs and other documentation that we
         obtained from the national and district offices for the plants we reviewed to determine if
         they received appropriate enforcement actions and whether or not repeat noncompliance
         incidents were adequately addressed. 60

     •   Conducted 30 site visits: We visited 30 plants to observe the inspectors performing their
         duties to (1) determine if the plant employees were in compliance with laws, regulations,
         and policies, and (2) evaluate if appropriate enforcement actions were taken in case of
         violations.

     •   Reviewed humane handling verification visits: We reviewed District Veterinary
         Medical Specialists’ schedules of humane handling verification visits to the plants to
         determine the frequency of their visits and their compliance with the FSIS recommended
         timeframe. We also reviewed their verification reports to identify any issues they
         detected.

60
  FSIS implemented a new information system, PHIS, during our audit. This system is being reviewed by another
OIG audit (24601-0001-23). Therefore, we did not verify the accuracy of the data.

                                                                    AUDIT REPORT 24601-0001-41             29
     •   Consulted with swine welfare experts: We consulted with two recognized non-FSIS
         experts (academicians) on swine welfare, who expressed their opinion on specific
         humane handling examples to determine if they constituted egregious violations.

     •   Reviewed training modules: We reviewed training modules to determine the
         connection between FSIS policy progression and implementation of changes into the
         procedures governing inspector activities at swine slaughter plants.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




30       AUDIT REPORT 24601-0001-41
Abbreviations
CFR ............................. Code of Federal Regulations
FMIA........................... Federal Meat Inspection Act
FSIS............................. Food Safety and Inspection Service
FY ............................... Fiscal Year
GAO ............................ Government Accountability Office
HACCP ....................... Hazard Analysis and Critical Control Point
HIKE ........................... Humane Interactive Knowledge Exchange
HIMP........................... HACCP-based Inspection Models Project
HMSA ......................... Humane Methods of Slaughter Act
NACMPI ..................... National Advisory Committee for Meat and Poultry Inspection
NR ............................... Noncompliance Record
OCFO .......................... Office of the Chief Financial Officer
OIG ............................. Office of Inspector General
PHIS ............................ Public Health Information System
SIP ............................... Salmonella Initiative Program
U.S.C. ......................... United States Code
USDA.......................... U.S. Department of Agriculture




                                                             AUDIT REPORT 24601-0001-41    31
Exhibit A: Audit Sites Visited

Exhibit A shows the organization and location of all sites visited.


                        Organization                                        Location


 FSIS National Office                                      Washington, D.C.


 FSIS Alameda District Office
   Office of Field Operations                              Alameda, CA
   Plants:
      1                                                    Modesto, CA
      2                                                    Vernon, CA
      3                                                    Turlock, CA
      4                                                    Atwater, CA
      5                                                    Orland, CA


 FSIS Chicago District Office
   Office of Field Operations                              Lombard, IL
   Plants:
      6                                                    Beardstown, IL
      7                                                    Grant Park, IL
      8                                                    Peoria, IL
      9                                                    Logansport, IN


 FSIS Des Moines District Office
   Office of Field Operations                              Des Moines, IA
   Plants:
      10                                                   Ottumwa, IA
      11                                                   Columbus Junction, IA
      12                                                   Hospers, IA
      13                                                   Fremont, NE


 FSIS Jackson District Office
   Office of Field Operations                              Ridgeland, MS
   Plants:
      14                                                   Gadsden, AL
      15                                                   Florence, AL
      16                                                   Moselle, MS
      17                                                   Pontotoc, MS



32     AUDIT REPORT 24601-0001-41
                     Organization                  Location

FSIS Minneapolis District Office
  Office of Field Operations        Minneapolis, MN
  Plants:
     18                             Austin, MN
     19                             Glencoe, MN
     20                             Worthington, MN
     21                             Sioux Falls, SD


FSIS Philadelphia District Office
  Office of Field Operations        Philadelphia, PA
  Plants:
     22                             Green Village, NJ
     23                             Salem, NJ
     24                             Gilbert, PA
     25                             Souderton, PA
     26                             Hatfield, PA


FSIS Raleigh District Office
  Office of Field Operations        Raleigh, NC
  Plants:
     27                             Fayetteville, NC
     28                             Sims, NC
     29                             Warsaw, NC
     30                             Warsaw, NC




                                      AUDIT REPORT 24601-0001-41   33
34   AUDIT REPORT 24601-0001-41
Agency's Response




                 USDA’S
       FOOD SAFETY AND INSPECTION
               SERVICE'S
        RESPONSE TO AUDIT REPORT




                       AUDIT REPORT 24601-0001-41   35
      United States        Food Safety            Washington, D.C.
      Department of        and Inspection         20250
      Agriculture          Service



        TO:      Gil Harden
                 Assistant Inspector General for Audit
                 Office of Inspector General

   FROM:         Alfred V. Almanza           /s/         April 17, 2013
                 Administrator
                 Food Safety and Inspection Service

SUBJECT:         Office of Inspector General (OIG) Official Draft Report – Inspections and
                 Enforcement Activities at Swine Slaughterhouses, Report Number 24601-1-41


We appreciate the opportunity to review and comment on this official draft report. The Food
Safety and Inspection Service (FSIS) reviewed the official draft report and has responded to
each of the recommendations.

Responses to Recommendations

Recommendation 1:
Develop a strategy to take progressively stronger enforcement actions against plants with
serious or repetitive violations.

FSIS Response:
In order to facilitate developing a strategy to take progressively stronger enforcement actions
against plants with serious or repetitive violations, FSIS has implemented the Public Health
Information System (PHIS). When inspection program personnel (IPP) perform a verification
task, the data from each verified regulation is recorded in PHIS. The data includes the findings
(either compliance or non-compliance) for each verified regulation with that task. IPP in-plant
are instructed to review this data in order to guide their scheduling of inspection tasks, and the
areas of establishments or production they are to focus on. The Agency also analyzes the data,
in PHIS, at headquarters to guide its decisions for scheduling “for cause” Comprehensive Food
Safety Assessments” (FSA). When data indicates repetitive non-compliance with food safety
related regulations, it implements enforcement action in accordance with the Rules of Practice,
9 CFR Part 5000. Additionally, FSIS is developing a strategy for taking progressively stronger
enforcement actions against plants with serious or repetitive violations by using regulatory non-
compliance to identify establishments that should be prioritized for “for cause” FSAs.

Estimated Completion Date:
FSIS will complete this work and develop a strategy by January 1, 2014.

Recommendation 2:
Develop criteria and procedures to classify all severe food safety NRs.

FSIS Response:
FSIS is developing criteria and procedures to classify all severe food safety NRs, by using the
Public Health Information System (PHIS) data. FSIS has determined the regulations that have


FSIS Form 2630-9 (6/86)                  EQUAL OPPORTUNITY IN EMPLOYMENT AND SERVICES
                                            2


significant potential for public health consequences. The PHIS focuses on recording data on
each verified regulation when inspection verification tasks are performed by inspection program
personnel. FSIS is utilizing a public health-based decision framework that is an integral
component of the Agency’s data-driven inspection system. The framework will be implemented
in the PHIS. The decision criteria framework will be used to prioritize FSIS activities, such as
prioritizing Food Safety Assessments (FSAs) in establishments identified by the public health
decision criteria. The details of this data driven approach to inspection and enforcement was
originally detailed in a paper entitled “Data-Driven Inspection for Processing and Slaughter
Establishments Public Health Decision Criteria,” published September 2010. A revised
approach that defined criteria was developed in 2012 and presented to the National Advisory
Committee for Meat and Poultry Inspection (NACMPI) in January 2013. Recently, FSIS
received the NACMPI comments and they are currently under review by FSIS officials.

Estimated Completion Date:
FSIS will incorporate input from the NACMPI and implement these criteria by January 1, 2014.
The criteria will be used to prioritize FSAs at establishments that represent the greatest
potential for loss of process control and food safety issues.

Recommendation 3:
Modify existing criteria to standardize when suspensions and Notices of Intended Enforcement
should be applied, as well as define the frequency and specify the timeframes when violations
would lead to such enforcement actions.

FSIS Response:
FSIS agrees that consistently applying the principles of the Public Health Decision Criteria,
which determines how suspensions and Notices of Intended Enforcement should be applied
when taking enforcement actions, is in fact necessary. When taking enforcement action, the
Agency is guided by the public health criteria as defined in “Data-Driven Inspection for
Processing and Slaughter Establishments Public Health Decision Criteria,” published
September 2010, and the regulatory Rules of Practice defined in 9 CFR Part 500.

Estimated Completion Date:
The Agency will develop instructions through a notice or directive for its management and
supervisory personnel on the Rules of Practice and decision criteria (see Recommendation #2
Response) to further advance consistent enforcement of the principles by January 31, 2014.

Recommendation 4:
Emphasize to supervisors that action is necessary to address inspector performance
issues. Actions should include discussing requirements with inspectors and monitoring their
progress more closely in the future.

FSIS Response:
FSIS agrees that supervisors should be continually addressing IPP performance issues by
addressing IPP’s understanding of policy and ensure consistent requirements are applied. To
that end, the Office of Field Operations has been conducting monthly seminars with all its
supervisory personnel to address inspection, sampling, and enforcement issues, both to
introduce new directives or initiatives as well as reinforce understanding of long standing
issues. Supervisors then are expected to discuss policies and procedures with all IPP during
work unit meetings. Supervisors manage in-plant employees’ performance through the In-Plant
                                              3


Performance System (IPPS), through which they observe and review each employee’s
performance to determine where there is a need for improvement. The Agency issued FSIS
Directive 4430.3 in June 2002, to be implemented October 2002. It requires supervisors to
perform at least 2 IPPS reviews per employee per year. In March of 2011, due to the
implementation of PHIS and accompanying training and workload, OFO authorized supervisors
to use their discretion on how often to perform IPPS. In February 2012, the Agency modified
the mission support element for CSIs to reflect PHIS, and in October 2012 issued revised IPPS
guidelines to reflect PHIS. In April 2012 OFO issued a memo to supervisors to follow IPPS
policies. FSIS will update its future training to emphasize the importance of following IPPS
policies.

The Agency also manages the AskFSIS system which allows field personnel to ask policy or
implementation questions and receive timely responses directly from subject matter experts.

Estimated Completion Date:
FSIS issued a reminder memo to supervisors to follow FSIS Directive 4430.3 on April 1, 2013.
The AskFSIS system is implemented.

Recommendation 5:
During training for inspectors, emphasize the importance of following agency policy in
documenting NRs.

FSIS Response:
The Agency agrees that documenting noncompliance with regulatory requirements is central to
its mission. FSIS will update its training to emphasize the importance of following Agency policy
in documenting NRs. FSIS will also reinforce this requirement during discussions with field
personnel.

Estimated Completion Date:
FSIS will review training content and update, where necessary, to ensure that documenting
noncompliance records (NRs) and Memorandum of Interviews (MOIs) are appropriately
emphasized and adjust, if needed, by January 31, 2014.

Recommendation 6:
Clarify guidance on when the presence of vermin on the kill floor constitutes a violation.

FSIS Response:
The Agency agrees that vermin, or other pests on a kill floor, processing area, or in any other
part of an establishment poses a sanitary hazard, and clearly violates 9 CFR 416.2(a). FSIS
will review training content and relevant notices and directives to ensure that all field personnel
understand the regulatory requirements of 9 CFR 416(2) and foster uniform application.

Estimated Completion Date:
FSIS will review training content and relevant notices and directives by January 31, 2014.


Recommendation 7:
Determine what measurable improvement the HIMP program achieved and its suitability as a
permanent program.
                                            4



FSIS Response:
FSIS will complete an evaluation of HIMP market hog establishments. The report will include an
analysis of HIMP establishments’ performance compared to non-HIMP establishments as well
as their performance with respect to performance standards established by an independent
consulting firm contractor. Such an evaluation may support rule-making to amend regulations
to make an inspection system informed by the market hog HIMP pilot permanent.

Estimated Completion Date:
FSIS will complete this evaluation and determine if a permanent program is warranted by March
31, 2014.

Recommendation 8:
Develop criteria to terminate plants from HIMP that have a pattern of severe violations.

FSIS Response:
The same criteria for regulatory compliance are applied to both non-HIMP and HIMP
establishments. Establishments that exhibit a pattern of serious regulatory non-compliance
may be subject to a Notice of Intended Enforcement Action, a suspension of inspection
activities, and even withdrawal of the grant of inspection. FSIS’ regulatory authority to take
progressively stronger actions in response to violations of the MPIA and PPIA are not different
for HIMP establishments. HIMP Market Hog establishments will be included in FSIS’s response
to Recommendations 1 through 6 and 11.
To terminate the HIMP waivers from an establishment operating under those waivers, FSIS has
instructed inspectors to report though supervisory channels when a clear trend of repetitive NRs
related to the waivers’ alternate procedures or Salmonella Initiative Program (SIP) protocol are
found. (FSIS Directive 5020.1 Verification of the SIP.) FSIS will review the instructions in the
directive and any available data to provide additional instruction to FSIS inspectors as needed.

Estimated Completion Date:
FSIS will review the instructions in the FSIS Directive 5020.1 and any available data to provide
additional instruction to FSIS inspectors on terminating waivers of regulations by October 1,
2013. If needed, updated instructions will be issued by January 31, 2014.

Recommendation 9:
Require all HIMP plants to perform visual and manual inspections of viscera.

FSIS Response:
FSIS understands the importance of visual and manual inspections of viscera. Therefore, FSIS
will convene a scientific workgroup to review the FSIS Directive 6100.3 Postmortem Livestock
Inspection and the Market Hogs HIMP Inspection Draft dated 06/21/05. The internal workgroup
will determine the basis for visual and manual inspection of viscera and ensure consistency of
policies.


Estimated Completion Date:
FSIS will convene this workgroup by October 31, 2013. As needed, updated policies will be
issued by March 31, 2014.
                                             5




Recommendation 10:
Establish formal agreements that address all aspects of HIMP with participating plants.

FSIS Response:
Establishments volunteering for the HIMP agreed to follow information required by a Federal
Register notice (62 FR 31553, June 10, 1997) which documented the pilot as a waiver of
regulations for all establishments participating in the pilot. In a Federal Register notice (76 FR
41186, July 13, 2011) FSIS required all establishments operating under a waiver of regulations,
including the HIMP Market Hog establishments to participate in the Salmonella Initiative
Program (SIP). Establishments requesting to operate under waivers submit a signed letter to
FSIS saying they agree to follow the SIP Letter and SIP Protocol. After evaluation of the
submission, FSIS issues a SIP Letter to the establishment documenting the conditions for the
establishment to meet to operate under the waiver. The alternative procedures are those
procedures an establishment uses in place of certain provisions of the regulations waived by
FSIS. To grant the waiver, FSIS requires establishments to meet certain relevant alternative
procedures. The SIP Protocol is a document written and signed by the establishment that
includes: 1. Identification of the provisions of the regulations that are to be waived; 2.
Alternative procedures that are to be used in place of any waived provisions of the regulations;
3. Description of the microbiological sampling and testing procedures that the establishment will
implement; 4. Agreement to share microbiological and other data with FSIS and, 5. Any other
pertinent information.

Estimated Completion Date:
All HIMP establishments have submitted a written, signed letter requesting to participate in SIP
and agreeing to abide by the SIP Letter and SIP Protocol. FSIS has issued a SIP Letter, to
each participating HIMP market hog establishment to spell out the specific alternative
procedures and SIP Protocol that the establishment must meet in order to operate under the
waiver(s). The response to this recommendation is complete.

Recommendation 11:
Provide a plan describing how FSIS will minimize reliance on the inspectors’ judgment to
ensure they consistently enforce HMSA and related regulations.

FSIS Response:
FSIS plans to minimize reliance on the inspectors’ judgment to ensure they consistently enforce
HMSA and related regulations, by implementing the numbered actions below:

1. Since an Inspector’s subjective judgment during an inhumane handling event can determine
the enforcement outcome, the agency implemented required supplemental training after the
release of Directive 6900.2 Revision 2, Humane Handling and Slaughter of Livestock, to
improve objective observation and assessment skills. The Situation Based Humane Handling
training Module I and Module II teach Inspectors how to interpret an egregious or non-
egregious inhumane handling event objectively, and take appropriate enforcement actions. The
Situation-based Humane Handling training modules were well received by Inspectors and
industry, and contain fictional scenarios of inhumane and egregious events that describe in
detail how the Inspector is to proceed with regulatory enforcement.
                                       6


New situation-based fictional scenarios meant to provide continued education for
Inspectors are under development, and will be posted through the Humane Interactive
Knowledge Exchange (HIKE) on the FSIS website. The HIKE scenarios consist of a
detailed description of an inhumane event, the enforcement development of regulatory
noncompliance, and a review of applicable FSIS regulations. New scenarios will be
posted on the FSIS HIKE website in 2013, the first of which will be released in the
second quarter of CY 2013. Inspectors will be notified of new scenarios, and will be
encouraged to review and discuss the documents with fellow colleagues.

2. FSIS plans to hire a new Humane Handling Enforcement Coordinator. With the
installation of the new Humane Handling Enforcement Coordinator, the noncompliance
review frequency will increase to monthly, and include direct commentary to the body of
each noncompliance that the District Veterinary Medical Specialists (DVMS) will share
with the inspectors. This specific correlation will improve the inspector’s objective
analysis when enforcing HMSA and related regulations, and reduce subjective
interpretation of inhumane events and their regulatory outcome. In addition, the Humane
Handling enforcement coordinator will develop a database to track the review of
noncompliance records; as well as review and track suspensions and NOIEs in a similar
database.

The Humane Handling Enforcement Coordinator will review humane handling
noncompliances monthly, and forward to the humane handling specialists (DVM) in
each district a summary of the number of noncompliance records that sound egregious
and should have received a Regulatory Control Action, suspension or a NOIE. The
review will also include instances of how many noncompliance records were poorly
written, or cited the wrong regulation for the noncompliant event.

Estimated Completion Date:
FSIS intends to issue the first scenario by May 30, 2013 and the remaining
scenarios will be released by December 31, 2013.

FSIS will establish a new Humane Handling Enforcement Coordinator; increase review
frequency of noncompliances, suspensions, and NOIEs; and develop a database
tracking these reviews by August 31, 2013.
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
